No. 20-8444
IN THE SUPREME COURT OF THE UNITED STATES
DUSTIN MELVIN DAVISON,
Petitioner,
vs.
THE STATE OF OKLAHOMA,
Respondent.

CERTIFICATE OF SERVICE
I, Ashley L. Willis, a member of the Bar of this Court, hereby certifies that
one copy of the Brief in Opposition was electronically filed with the Clerk of this
Court and mailed by first-class, postage prepaid mail, to this Court and to Counsel
for the Petitioner:
Andrea Digilio Miller
Oklahoma County Public Defender’s Office
320 Robert S. Kerr Avenue, Suite 400
Oklahoma City, Oklahoma 73102
s/Ashley L. Willis
Dated: July 29, 2021

